           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Initiated of FAA’s Process               Date:    November 19, 2008
           for Screening, Placing, and Training Newly Hired
           Air Traffic Controllers
           Federal Aviation Administration
           Project No. 09A3001A000

  From:    Lou Dixon                                                Reply to    JA-10
                                                                    Attn. of:
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Assistant Administrator for Financial Services
            and Chief Financial Officer

           On October 30, 2008, Representative Jerry F. Costello, Chairman of the House
           Subcommittee on Aviation, requested that we review the Federal Aviation
           Administration’s (FAA) processes for screening, placing, and training newly hired air
           traffic controllers. Specifically, the Chairman expressed concerns about whether
           FAA’s screening test, Air Traffic Selection and Training, or AT-SAT, effectively
           identifies candidates’ potential to become air traffic controllers and whether the FAA
           Academy adequately trains candidates before FAA places them at facilities.

           Accordingly, we plan to review these FAA processes. Our audit objectives are to
           assess (1) how FAA determines whether candidates have the requisite abilities to
           become successful controllers, (2) what procedures FAA uses to place controllers at
           air traffic facilities, and (3) whether the initial training at the FAA Academy
           adequately prepares controller candidates for facility training.

           We will contact your audit liaison to schedule an entrance conference. If you have
           any questions, please contact Dan Raville, Program Director, at (202) 366-1405 or
           Bob Romich, Project Manager, at (202) 366-6478.

                                                     #
           cc:        FAA Deputy Administrator
                      Anthony Williams, ABU-100
                      Martin Gertel, M-1
